TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       The Human Capital Office Made
                     Improvements to the Employee Tax
                    Compliance Program but Has Not Yet
                  Improved the Detection of Noncompliance



                                         August 31, 2007

                              Reference Number: 2007-10-128




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           August 31, 2007


 MEMORANDUM FOR CHIEF HUMAN CAPITAL OFFICER

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Human Capital Office Made Improvements
                             to the Employee Tax Compliance Program but Has Not Yet Improved
                             the Detection of Noncompliance (Audit # 200610039)

 This report presents the results of our review of the Employee Tax Compliance Program
 (hereafter referred to as the ETC Program or the Program). The overall objective of this review
 was to determine whether the Internal Revenue Service (IRS) effectively implemented the ETC
 Program Task Force recommendations and whether the Program is able to proactively identify
 instances in which employees may have understated their tax liabilities. This audit was
 conducted as part of the Treasury Inspector General for Tax Administration’s Fiscal Year 2007
 audit plan.

 Impact on the Taxpayer
 The ETC Program Office has taken several steps to improve the Program, but efforts to better
 detect potential employee noncompliance are still in the development stage. Until these efforts
 are fully implemented, certain kinds of employee tax noncompliance may not be detected.
 Employee noncompliance with the tax laws could cause embarrassment to the IRS and erode the
 public’s confidence in the tax system.

 Synopsis
 The IRS Human Capital Office (HCO) is responsible for administering the ETC Program. The
 goal of the Program is to encourage employees to fulfill their tax obligations and to identify
 employees who are noncompliant with Federal tax laws. After the discovery of certain kinds of
 employee noncompliance that had not been detected by the Program, the IRS formed the ETC
 Program Task Force (the Task Force) to assess the Program. The Task Force concluded the IRS
                      The Human Capital Office Made Improvements to the
                      Employee Tax Compliance Program but Has Not Yet
                           Improved the Detection of Noncompliance


could not timely determine employee tax compliance, and it lacked the tools needed to analyze
tax return data and provide a data-driven synopsis of the ETC Program’s performance. In
November 2004, the Task Force made six recommendations for improving the Program.
In response to the Task Force recommendations, the HCO established the ETC Program Office
to provide leadership for the Program and to coordinate with the IRS operating divisions. The
Program Office took actions to improve how the IRS oversees employee tax compliance,
including steps to:
   •   Improve outreach to employees so they understand the importance of timely filing and
       paying their Federal income taxes.
   •   Centralize examination results to expedite the processing of noncompliance cases.
   •   Revise case closing guidelines to more expeditiously close certain types of cases.
However, the HCO has not fully implemented all of the Task Force recommendations. Actions
to better track and share data are not yet completed, and efforts to better detect potential
employee noncompliance are still in the development stage. As a result, the ETC Program still
cannot identify certain types of employee tax noncompliance. In addition, the Program Office
has not developed performance measures to assist in evaluating its efforts to improve employee
tax compliance.

Recommendations
We recommended the Chief Human Capital Officer (1) determine how best to timely and
effectively improve employee tax compliance detection procedures and weigh the risk of not
implementing them and achieving the goals associated with them against other priorities of the
HCO, (2) ensure the ETC Program Manager creates a new schedule for implementing the
remaining Task Force recommendations, and (3) develop performance measures so the ETC
Program can be fully assessed.

Response
The Chief Human Capital Officer agreed with our recommendations. HCO management plans to
assess the staffing needs of the ETC Program Office to determine if staffing is adequate to meet
the objectives of the Program within the priorities of the HCO. Management also plans to
review and revise the schedule of Task Force recommendations, develop a risk-assessment
methodology, prioritize the noncompliance projects, and review current HCO data systems for
integration strategies. The ETC Program Manager has begun the process of developing
performance measures. Management’s complete response to the draft report is included as
Appendix V.

                                                                                                 2
                     The Human Capital Office Made Improvements to the
                     Employee Tax Compliance Program but Has Not Yet
                          Improved the Detection of Noncompliance


Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.




                                                                                        3
                               The Human Capital Office Made Improvements to the
                               Employee Tax Compliance Program but Has Not Yet
                                    Improved the Detection of Noncompliance




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Human Capital Office Created a Program Office, Enhanced
          Communication and Outreach, and Improved the Adjudication
          Procedures.....................................................................................................Page 3
          Some Types of Employee Noncompliance May Still Be Undetected ..........Page 5
                    Recommendations 1 and 2: ..............................................Page 9

                    Recommendation 3:........................................................Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 11
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Employee Tax Compliance Program Process and
          Historical Data ..............................................................................................Page 15
          Appendix V – Management’s Response to the Draft Report .......................Page 18
       The Human Capital Office Made Improvements to the
       Employee Tax Compliance Program but Has Not Yet
            Improved the Detection of Noncompliance




                 Abbreviations

AIMS       Audit Information Management System
ETC        Employee Tax Compliance
HCO        Human Capital Office
IRS        Internal Revenue Service
                           The Human Capital Office Made Improvements to the
                           Employee Tax Compliance Program but Has Not Yet
                                Improved the Detection of Noncompliance




                                              Background

The Code of Federal Regulations1 states that all Federal Government employees are expected to
satisfy their obligations as citizens of the United States, “. . . including all just financial
obligations, especially those such as Federal, State, or local taxes that are imposed by law.” As
the agency of the Federal Government primarily responsible for administering the Federal tax
law, the Internal Revenue Service (IRS) must ensure its employees comply with the same tax
laws to which all taxpayers are subject.
The IRS Human Capital Office (HCO) is responsible for administering the Employee Tax
Compliance Program (hereafter referred to as the ETC Program or the Program). The ETC
Program Manager has the responsibility to coordinate and interact with all IRS divisions and
business units to address employee tax compliance issues; identify trends and issues to
proactively address noncompliance; and orient, educate, and assist employees in complying with
the tax laws.
In July 1995, ETC Program operations were centralized into a single branch office in
Cincinnati, Ohio, to improve the IRS’ ability to identify noncompliant employees. The role of
the ETC Branch is to ensure consistency in the treatment of employee tax noncompliance,
protect employee privacy by further restricting access to employee tax information, and ensure
employees fulfill their tax obligations by identifying those who are noncompliant with Federal
tax laws.
Each year, the IRS employee database2 is matched with tax data3 to identify potential employee
noncompliance. The computer match will identify (but is not limited to) instances when an
employee did not file a Federal tax return, did not file timely, or did not pay the tax owed when
due. Noncompliance cases are routed through the HCO Labor and Employee Relations function
to the individual employees’ managers for initial action and can be eventually referred to the
1203 Review Board and the IRS Commissioner for final settlement. A detailed explanation of
the ETC Program process and the number of cases identified for the past 2 years is included in
Appendix IV.
There have been indications that some instances of employee noncompliance have not been
detected by the ETC Program. In May 2001, the Treasury Inspector General for Tax
Administration received allegations that some IRS employees were understating their tax
liability by filing a fraudulent U.S. Individual Income Tax Return (Form 1040) Profit or Loss

1
  Code of Federal Regulations Title 5, Volume 3, Section 2635.809 (Revised as of January 1, 2004).
2
  The Treasury Integrated Management Information System contains employment information for all IRS
employees.
3
  The Individual Master File is the IRS database that maintains transactions or records of individual tax accounts.
                                                                                                              Page 1
                             The Human Capital Office Made Improvements to the
                             Employee Tax Compliance Program but Has Not Yet
                                  Improved the Detection of Noncompliance



From Business (Schedule C) with their Federal tax returns. The Treasury Inspector General for
Tax Administration Office of Investigations worked with the IRS Small Business/Self-Employed
Division to select for review and audit 822 employee (or former employee) tax returns. As of
October 2005,4 405 completed examinations had resulted in adjustments (both increases and
decreases) to taxable income averaging $1,071 (median adjustment of $136) and adjustments to
other taxes and tax credits claimed averaging $2,650 (median credit adjustment of $307).5 The
Schedule C Project demonstrated that the ETC Program–as it was designed at that time–could
not identify cases of employee noncompliance when the employee had timely filed a tax return
with no balance due but had taken erroneous deductions as a part of that tax return.
Because the ETC Branch’s case identification process was not designed to detect cases like
those identified in the Schedule C Project, and because the recommendations from two
earlier studies had not been fully implemented, in March 2004 the IRS established a task force to
reassess the ETC Program. The conclusion of the ETC Program Task Force (the Task Force)
study was that no single individual or office had effective control of the process. As a
consequence, the IRS could not timely determine employee tax compliance, and it lacked the
tools needed to analyze tax return data and provide a data-driven synopsis of the ETC Program’s
performance. In November 2004, the Task Force issued a report that made the following six
recommendations to improve the Program:
       1.   Create a comprehensive program office.
       2.   Enhance communications and educational outreach.
       3.   Include an IRS employee indicator on all data systems.
       4.   Enhance employee noncompliance detection procedures.
       5.   Enhance data support within the ETC Program process.
       6.   Improve ETC Program administrative adjudication procedures.
This review was performed in the HCO, Workforce Relations, Employee Conduct and
Compliance function in Washington, D.C., and the ETC Branch in Cincinnati, Ohio, during the
period July 2006 through March 2007. The audit was conducted in accordance with Government
Auditing Standards. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




4
    These were the most current data available at the time of our review.
5
    Adjustments are per line item; there can be more than one adjustment per tax return.
                                                                                           Page 2
                        The Human Capital Office Made Improvements to the
                        Employee Tax Compliance Program but Has Not Yet
                             Improved the Detection of Noncompliance




                                    Results of Review

The HCO has implemented three of the six recommendations made by the Task Force, but
additional work is needed to address the three remaining recommendations. The HCO created an
ETC Program Office, which took action to enhance the Program’s educational outreach and
improve the adjudication procedures associated with the Program. Although the Program Office
took actions to address the Task Force recommendations to (1) add an employee indicator on
IRS data systems, (2) enhance data support for the Program, and (3) enhance the employee
noncompliance detection procedures, the recommendations are not yet fully implemented. As a
result, the ETC Program still cannot identify certain types of employee tax noncompliance, such
as those that were identified during the Schedule C Project. In addition, the Program Office has
not developed any performance measures to assist in evaluating its success and identifying areas
needing improvement.

The Human Capital Office Created a Program Office, Enhanced
Communication and Outreach, and Improved the Adjudication
Procedures
As recommended by the Task Force, the HCO created the Program Office in August 2005 with
the selection of the ETC Program Manager. The Program Office is positioned above the
ETC Branch organizationally but does not have line authority over the Branch. Figure 1 shows
how the Program Office is aligned within the HCO.
            Figure 1: Alignment of the ETC Program Office Within the HCO




Source: IRS Human Capital Office.


                                                                                         Page 3
                          The Human Capital Office Made Improvements to the
                          Employee Tax Compliance Program but Has Not Yet
                               Improved the Detection of Noncompliance



The Program Manager cannot unilaterally implement reviews of employee returns and is
dependent on the Small Business/Self-Employed Division to provide the resources needed to
conduct actual audits of employee returns. The decision to commit these resources is made by
the 1203 Review Board, based on the recommendation of the Program Manager, availability of
resources, and consideration of other IRS priorities. The Program Manager’s duties closely
match the Program Office responsibilities recommended by the Task Force, including:
    •   Overseeing implementation of the Task Force recommendations.
    •   Advising the 1203 Review Board on major policy initiatives, employee issues, and
        mitigation strategies.
    •   Actively participating in formulation of ETC Program policy.
    •   Providing leadership over the activities designed to identify noncompliant employees,
        including providing data to support specific enforcement actions.
    •   Evaluating the program measures, including ensuring programmatic issues are addressed
        timely.
    •   Coordinating employee communication, education, and assistance efforts with the
        operating divisions.
The Program Office is comprised of one permanent employee, the Program Manager, and
occasional temporary assistance from another HCO employee. Since the creation of the
Program Office in August 2005, the Program Manager has worked extensively on
communication with and outreach to IRS employees, with a goal to reduce the number of
employees that are not compliant with their tax responsibilities by educating them about tax
compliance. The outreach efforts involve presentations and other communications given at
employee training sessions, particularly at the IRS campus6 locations. Because most tax
compliance problems have originated with lower grade employees in the campuses (90 percent
of cases relate to employees at Grade 8 and below7), many Employee Tax Compliance Alerts are
addressed to those employees. In addition, the IRS Intranet includes a link to the Employee Tax
Compliance webpage, which provides employees with news and information on tax compliance
including different sets of “Questions and Answers” for both employees and managers.
Furthermore, in his 2007 annual tax compliance message to all employees, the IRS
Commissioner recommended both managers and employees review the information contained on
the Employee Tax Compliance webpage.
The Program Manager has also addressed the recommendation to enhance the process by
centralizing the examination results and adjusting the ETC Program case closing guidelines. As

6
  The campuses are the data processing arm of the IRS. They process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
7
  Calendar Year 2005.
                                                                                                          Page 4
                       The Human Capital Office Made Improvements to the
                       Employee Tax Compliance Program but Has Not Yet
                            Improved the Detection of Noncompliance



recommended, employee returns identified during the audit process are controlled by a support
manager. When the examinations are completed, they are subject to mandatory reviews, and the
results of the examinations are submitted to a central location within the IRS to ensure cases are
quickly referred through the ETC Branch to the proper Labor and Employee Relations office.
The Program Office obtained approval for changes to the Program case closing guidelines that
will allow the ETC Branch to more expeditiously close certain types of cases. These changes
dealt with adjusting the Branch criteria so a first-time offense involving an issue(s) below a
specific tolerance(s) is handled as a minor compliance infraction, with an advisory letter being
sent to the employee instead of the case being referred to management. The guideline changes
relate only to those cases in which the employee has no prior history of noncompliance.
The establishment of the Program Office and its actions to improve outreach to employees,
centralize examination results, and revise closing guidelines improved how the IRS oversees
employee tax compliance. However, we determined additional actions are needed to better
detect employee noncompliance and address the remaining Task Force recommendations.

Some Types of Employee Noncompliance May Still Be Undetected
The Program Office focused on improving communication and outreach because it believed
those activities would have the greatest impact on improving tax compliance. However, it is
important that the remaining Task Force recommendations be fully implemented to improve the
detection procedures for any noncompliance. Although the Program Office has made some
progress, additional efforts are needed to fully address the Task Force recommendations to:
   •   Include an employee indicator on IRS data systems.
   •   Enhance data support.
   •   Enhance employee noncompliance detection procedures.
Until these recommendations are fully implemented, the Program Office may not detect certain
kinds of employee tax noncompliance, such as erroneous deductions that were identified during
the Schedule C Project. Further, the Program Office needs to develop performance measures to
help evaluate the success of the Program and identify areas needing improvement.
When the Program Office was created, the Program Manager suggested three full-time
employees would be needed to implement the Task Force recommendations and improve
noncompliance detection procedures. However, the Program Office currently consists of only
one person; the Program Manager believes additional resources would allow the IRS to improve
its noncompliance detection procedures. The Chief Human Capital Officer should consider how
best to timely and effectively implement the remaining Task Force recommendations and weigh
the risk of not implementing them or achieving the goals associated with them against other
priorities of the HCO.

                                                                                            Page 5
                          The Human Capital Office Made Improvements to the
                          Employee Tax Compliance Program but Has Not Yet
                               Improved the Detection of Noncompliance



In our opinion, the success of the ETC Program depends, in part, on IRS senior executives’
commitment to devoting sufficient examination resources to audit employee returns selected for
review. This requires a balance between ensuring employees are fully compliant with their tax
obligations and pursuing higher dollar cases that may have a greater impact on closing the
existing tax gap.8 Although the ETC Program may not produce a high-dollar impact,
noncompliant employees may cause embarrassment to and erode the public’s confidence in the
IRS. We further believe a balanced approach of employee education together with examination
projects is needed to enforce the IRS’ position that employee tax noncompliance is inappropriate,
will be detected, and will be properly addressed.

Employee indicators are not present on older compliance tracking system
records
The Task Force reported, “One of the main obstacles to performing analysis and identifying
employees entering the noncompliance stream is that employee indicators are not present on all
of the primary Compliance [function] tracking systems.” This principally applied to the Audit
Information Management System (AIMS)9 and three other systems based on the AIMS. Within
the AIMS database, Source Code 46 is specifically designated for employee audits that are
initiated as part of a referral or as part of a new employee’s background process. However,
audits of employee returns may also originate from several other sources. The Task Force found
that, by relying only on Source Code 46 to identify employee cases, as much as 52 percent of the
true volume of employee cases in the audit process was excluded. To address this problem, the
Task Force recommended that an employee indicator be added to the AIMS.
In January 2006, the IRS added to the AIMS an employee indicator that will allow it to more
easily identify and evaluate the noncompliance identified through audits of employee tax returns
regardless of the audits’ origins. However, the indicator field is used only when an audit is
started, which means the employee indicator will be blank or zero for any employee audits
started prior to January 2006. Therefore, until the older cases are closed off the AIMS, any
analysis of the System will still not be accurate because some older cases did not have this
indicator field. Our tests of the AIMS revealed that 13 percent of the employee audits conducted
did not have the source code that would identify them as employee audits, which is a
considerable improvement from the 52 percent reported by the Task Force. Over time, this
problem will diminish as older audits are closed from the System and new audits are entered on
the System. Eventually, because of this systemic change, all employee accounts should contain
an employee indicator when audits are conducted.



8
  The tax gap is the difference between the tax amounts taxpayers pay voluntarily and on time and what they should
pay under the law.
9
  The AIMS is a computer system used by the IRS during the audit process to control returns, input
assessments/adjustments to IRS data records, and provide management reports.
                                                                                                           Page 6
                       The Human Capital Office Made Improvements to the
                       Employee Tax Compliance Program but Has Not Yet
                            Improved the Detection of Noncompliance



ETC Branch and Labor and Employee Relations function management
information systems have not been integrated
The Task Force reported that conducting just one data extract each year and having two different
systems that did not share data were hindering efforts to detect and analyze employee
noncompliance. The HCO partially addressed the Task Force recommendation to enhance data
support by working with the Modernization and Information Technology Services organization
to increase the number of computer extracts run each year. However, the HCO has not taken any
action to integrate the ETC Program’s principal management information systems.
Beginning in Calendar Year 2006, the Program Office increased the number of computer
matches from one to three each year. The former annual computer match was timed each year to
identify when an employee did not file a tax return. It also identified other types of
noncompliance that were not dependent on the timing of the filing date of the annual tax return,
such as when audit results post to an employee’s account. The Program Office added two new
computer matches that more timely identify these other types of noncompliance. Although these
two matches do not identify new types of noncompliance, they do reduce the time between the
occurrence and the detection of the noncompliance.
The ETC Program’s two principal management information systems (for the ETC Branch and
the Labor and Employee Relations function) still have not been integrated, even though the ETC
Implementation Plan reported an expected completion date of July 2006. The Task Force noted
that modification and integration of these two systems was fundamental to understanding and
evaluating the processing of employee cases. In addition, the Task Force noted that determining
the status of employee cases and analyzing the results of cases was difficult, in part, because of
various data system limitations. The addition of certain fields, such as dollar amounts, and the
integration of the two systems should allow for tracking of cases from inception to final closure
and for greater analysis by case type and dollar impact. The Task Force also noted this type of
data would be useful in evaluating program performance.

Employee noncompliance detection procedures have not been improved
The Task Force observed that the IRS could not determine if its process of using common
examination filtering criteria effectively identifies employee tax noncompliance. However, the
Schedule C Project demonstrated that the process could not detect more complicated types of
employee noncompliance. That Project originated from a complaint made to the Treasury
Inspector General for Tax Administration Office of Investigations, not through the routine audit
processes. To address this gap in the detection process, the Task Force recommended several
issues be considered, including:




                                                                                            Page 7
                          The Human Capital Office Made Improvements to the
                          Employee Tax Compliance Program but Has Not Yet
                               Improved the Detection of Noncompliance



     •   Consistent analysis of employee tax return filings to identify patterns of potential
         noncompliance.
     •   Screening of employee returns against known abusive tax avoidance scheme participants’
         lists and promoter lists.
     •   Development of standardized employee return filters to identify indicators of potential
         noncompliance.
The Program Office has worked with the Small Business/Self-Employed Division to develop
potential projects to identify previously undetected employee tax noncompliance.10 However,
since its inception in August 2005, the Program Office has requested 1203 Review Board
approval for only one project to identify different types of employee noncompliance. The
Project Office submitted the project request in January 2007, and the request was still pending as
of the end of our audit fieldwork. In addition, the Program Office has not created standardized
filters to identify employee noncompliance, although this was projected to be completed by
February 2006.
Furthermore, the IRS Management Controls Accountability Program Handbook for Managers
requires managers to establish policies and procedures to ensure reliable information is obtained
and used for decision making. However, the Program Manager does not have a documented
process for identifying which potential employee noncompliance projects should be prioritized
and submitted to the 1203 Review Board, so there is little assurance that the projects with the
greatest possibility for identifying noncompliance will be implemented for examinations.
As more work is done in this area, the Program Manager will need a formal process to assess the
benefits of any potential projects. For example, while the Schedule C Project audits were being
conducted, adjustments had to be made to several other forms and schedules attached to
employee returns. The adjustments most often involved itemized deductions, capital gains and
losses, and supplemental income and losses. Any of these areas might yield several additional
projects, and the Program Office will need to prioritize the projects based on risk and expected
results.

The Program Office has not established performance measures
While creation of performance measures was not a specific, standalone recommendation of the
Task Force, sound internal management controls and the Budget and Performance Integration
portion of the President’s Management Initiatives require that:




10
 The Program Office has received Tax Year 2003 filing pattern data and expects to receive data for Tax
Years 2004 and 2005 in the near future.
                                                                                                         Page 8
                      The Human Capital Office Made Improvements to the
                      Employee Tax Compliance Program but Has Not Yet
                           Improved the Detection of Noncompliance



   •   Managers use performance information to make budget, regulatory, and management
       decisions.
   •   Agencies estimate the full and marginal cost of achieving performance goals.
   •   All programs include efficiency measures.
However, the Program Office has not developed effective performance measures. This occurred,
in part, because of data limitations previously described and because the Program Office decided
to dedicate its resources to other priorities. The HCO Strategic Implementation Plan reports that
improved ETC Program communication/education, employee noncompliance detection, and
higher employee compliance levels are desired outcomes of the Program. However, the Plan
does not list the performance measures that will be used to assess progress or the specific target
levels to be obtained. Until better measures are developed, the Program Office plans to assess
the success of its efforts by evaluating the number of ETC Program cases that go before the
1203 Review Board and the workload statistics of the ETC Branch; however, these measures do
not address all of the desired outcomes.

Recommendations
Recommendation 1: The Chief Human Capital Officer should determine how best to timely
and effectively improve employee tax compliance detection procedures and weigh the risk of not
implementing them and achieving the goals associated with them against other priorities of the
HCO. Consideration should be given to the availability of HCO resources when delegating the
work needed to make improvements.
       Management’s Response: HCO management agreed with this recommendation and
       plans to assess the staffing needs of the ETC Program Office to determine if the staffing
       is adequate to meet the objectives of the Program within the priorities of the HCO.
       Management also plans to work with the Small Business/Self-Employed Division
       Research function and the 1203 Review Board to analyze and communicate the filing
       patterns of IRS employees.
Recommendation 2: The Chief Human Capital Officer should ensure the ETC Program
Manager creates a new schedule for completing the open Task Force recommendations, paying
particular attention to (1) developing a risk-assessment methodology to justify which projects are
selected for work and developing an appropriate set of filters based on the projects’ results and
(2) integrating data systems with which to analyze identified employee noncompliance and
report Program accomplishments.




                                                                                           Page 9
                    The Human Capital Office Made Improvements to the
                    Employee Tax Compliance Program but Has Not Yet
                         Improved the Detection of Noncompliance



      Management’s Response: HCO management agreed with this recommendation and
      plans to review and revise the schedule of Task Force recommendations, develop a
      risk-assessment methodology, and prioritize the noncompliance projects. Management
      also plans to consult with the Modernization and Information Technology Services
      organization to review current HCO data systems and suggest integration strategies.
Recommendation 3: The Chief Human Capital Officer should develop performance
measures so the ETC Program can be fully assessed.
      Management’s Response: HCO management agreed with this recommendation and
      stated the ETC Program Manager has begun the process of developing performance
      measures.




                                                                                  Page 10
                      The Human Capital Office Made Improvements to the
                      Employee Tax Compliance Program but Has Not Yet
                           Improved the Detection of Noncompliance



                                                                                   Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS effectively implemented
the ETC Program (the Program) Task Force recommendations and whether the Program is able
to proactively identify instances in which employees may have understated their tax liabilities.
To accomplish this objective, we:
I.     Evaluated the strategic direction and current results of the ETC Program.
       A. Determined if the HCO had identified performance measures to evaluate the success
          of the Program.
       B. Contacted Small Business/Self-Employed Division senior management to determine
          if the Division can devote additional resources necessary to conducting the audits if
          the Program increases its number of cases.
       C. Determined if there were any Memoranda of Understanding between the ETC Branch
          and the operating divisions identifying the specific level of support that should be
          provided and if the Memoranda needed to be amended based on an increase in the
          volume of cases.
       D. Evaluated the results of the Program by reviewing the case closures for Calendar
          Years 1999 – 2005 to identify any trends in case source, types of issues pursued, and
          demographics of the employees involved.
II.    Determined if the IRS had taken actions necessary to implement the recommendations of
       the ETC Program Task Force.
       A. Determined if the IRS had created a comprehensive program office to serve as a
          liaison across organizational lines to bring noncompliance detection, Program
          adjudication, and communications under one individual.
       B. Evaluated the communications and educational outreach efforts the IRS has taken to
          communicate tax compliance requirements to its employees.
       C. Determined if the IRS had installed employee indicators on its Compliance function
          systems, so data on noncompliant employees can be captured and analyzed timely.




                                                                                          Page 11
                              The Human Capital Office Made Improvements to the
                              Employee Tax Compliance Program but Has Not Yet
                                   Improved the Detection of Noncompliance



           D. Determined if the Program had enhanced its data support by increasing the number of
              Individual Master File1 extracts done each year and by making changes to its
              management information systems to track cases through the Program.
           E. Evaluated the adjudication process to determine if the Program had improved its
              adjudication procedures by centralizing the examination of employee returns and
              reviewed its case closing guidelines.
           F. Determined if the Program is taking the necessary steps to enhance its ability to detect
              employees not complying with their tax responsibilities.




1
    The Individual Master File is the IRS database that maintains transactions or records of individual tax accounts.




                                                                                                               Page 12
                     The Human Capital Office Made Improvements to the
                     Employee Tax Compliance Program but Has Not Yet
                          Improved the Detection of Noncompliance



                                                                             Appendix II

                 Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
Carl L. Aley, Director
Kevin Riley, Audit Manager
David Robben, Lead Auditor
Stephanie Foster, Senior Auditor
William Thompson, Auditor




                                                                                    Page 13
                     The Human Capital Office Made Improvements to the
                     Employee Tax Compliance Program but Has Not Yet
                          Improved the Detection of Noncompliance



                                                                 Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Commissioner, Small Business/Self-Employed Division SE:S
Chief Information Officer OS:CIO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief Human Capital Officer OS:HC




                                                                         Page 14
                         The Human Capital Office Made Improvements to the
                         Employee Tax Compliance Program but Has Not Yet
                              Improved the Detection of Noncompliance



                                                                                  Appendix IV

    Employee Tax Compliance Program Process and
                   Historical Data

The ETC Branch works cases on a calendar year basis based on the annual computer match. The
cases can represent more than one tax period, depending on the type of noncompliance. Figure 1
shows the types of cases in the ETC Branch beginning inventory for Calendar
Years 2005 and 2006.
  Figure 1: Employee Noncompliance Cases for Calendar Years 2005 and 2006

                                          Calendar Year 2005            Calendar Year 2006
      Type of Noncompliance
                                        Number        Percentage      Number        Percentage
                                        of Issues      to Total       of Issues      to Total
      Failed to file tax return           999            10%             882            11%
         Open balance due                2,063           22%            1,641           20%
    Filed return late or paid tax        6,316           66%            5,359           67%
              due late
  Employee audit or adjustment            179             2%             144            2%
                Other                      13             0%              11            0%
                Totals                   9,570          100%            8,037          100%
Source: IRS ETC Branch.

The ETC Branch researches each issue to determine whether a potential problem exists. The
Branch closes those cases in which noncompliance is not indicated or that have previously been
addressed by management administratively. In the remaining cases, employees are contacted by
letter and provided a chance to explain the potential noncompliance issue. If information is
provided that resolves an issue or if it can be determined the issue involves a minor or technical
error, the issue is closed without any further action. Issues that cannot be resolved or closed are
referred to the employee’s manager through the HCO Labor and Employee Relations function
for further investigation and administrative action. Figure 2 shows the manner in which
Calendar Year 2005 ETC Program cases were processed.


                                                                                           Page 15
                           The Human Capital Office Made Improvements to the
                           Employee Tax Compliance Program but Has Not Yet
                                Improved the Detection of Noncompliance



             Figure 2: Disposition of Calendar Year 2005 ETC Program Cases

                          Description of Closure                          Number          Percentage
      Closed based on ETC Branch research                                       6,169         64%
      Closed after receiving information from the employee                        225          2%
      Closed with an advisory letter to the employee                              721          8%
      Referred to manager through the Labor and                                 2,455         26%
      Employee Relations function
      Totals                                                                    9,570        100%
    Source: ETC Branch.

Once the cases are referred to a manager through the Labor and Employee Relations function,
administrative disciplinary actions could range from oral counseling to suspension or even
removal, depending on the severity of the noncompliance issue and whether there have been
repeated or multiple offenses.
In Section 1203, the IRS Restructuring and Reform Act of 19981 specified that any IRS
employee determined to have willfully failed to file any required Federal tax return or willfully
understated a tax liability must be terminated from employment with the IRS. The Deciding
Official from the employee’s operating division makes the determination if the employee’s
noncompliance was willful. Cases involving willful intent are referred to the IRS 1203 Review
Board2 for the Board’s determination and recommendation to the IRS Commissioner. The
1203 Review Board forwards to the Commissioner only those cases for which the Board
recommends some type of punishment other than removal. The Commissioner can then either
agree with the Board’s recommendation to mitigate the penalty or remove the employee. The
IRS Commissioner has sole discretion to determine what action to take. This authority cannot
be delegated, and the Commissioner’s determination may not be appealed. For the period
October 2003 through August 2006, 564 cases were presented to the 1203 Review Board and
forwarded to the Commissioner for adjudication. This total includes cases identified from
sources other than the annual ETC Program computer match. A total of 193 employees were
fired (removed) for not complying with their Federal tax obligations. Figure 3 shows a complete
breakdown of the adjudications.


1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  The Board Members are the Deputy Commissioner for Operations Support; the Deputy Commissioner for Services
and Enforcement; the Deputy Chief Appeals; and the Chief, Equal Employment Opportunity and Diversity.
                                                                                                    Page 16
                 The Human Capital Office Made Improvements to the
                 Employee Tax Compliance Program but Has Not Yet
                      Improved the Detection of Noncompliance



Figure 3: Breakdown of the 564 Cases Referred to the 1203 Review Board
               From October 2003 Through August 2006

             Commissioner Adjudication of Section 1203 Cases


                                 Counseling
                                     3          Reprimand
                    Removal                        151
                      193


                                                   Admonishment
                       Other                            24
                         3
                                   Suspension
                                      190



   Source: ETC Program Office.




                                                                     Page 17
       The Human Capital Office Made Improvements to the
       Employee Tax Compliance Program but Has Not Yet
            Improved the Detection of Noncompliance



                                                  Appendix V

Management’s Response to the Draft Report




                                                           Page 18
The Human Capital Office Made Improvements to the
Employee Tax Compliance Program but Has Not Yet
     Improved the Detection of Noncompliance




                                                    Page 19
The Human Capital Office Made Improvements to the
Employee Tax Compliance Program but Has Not Yet
     Improved the Detection of Noncompliance




                                                    Page 20
The Human Capital Office Made Improvements to the
Employee Tax Compliance Program but Has Not Yet
     Improved the Detection of Noncompliance




                                                    Page 21
